INDIANAPOLIS
MAYOR JOE HOGSETT
ear. 1821

November 13, 2020

VIA FEDEX
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Day, et al. v. Wooten, et al., No. 20-477

Dear Mr. Harris,
I represent the respondents in this petition for certiorari. Their response is currently due
on December 2, 2020. The respondents respectfully request a thirty-day extension of
that deadline — to and including January 4, 2021 (January 1 is a federal legal holiday
under 5 U.S.C. § 6103(a), and January 2 and 3 fall on a weekend).
The extension is appropriate because respondents' counsel has several pre-existing
deadlines that will prevent him from adequately preparing a response in the coming
weeks. Those deadlines include filing a reply in support of a motion for judgment on
the pleadings in United States District Court for the Southern District of Indiana in Case
No. 1:20-cv-02158-JMS-TAB; attending an initial pretrial conference in the Southern
District for Case No. 1:20-cv-01269-SEB-TAB; filing a summary-judgment motion in the
Southern District for Case No. 1:20-cv-0063-SEB-MJD; attending a summary-judgment
in Marion County Superior Court under Cause No. 49D05-1709-CT-035165; and filing
an answer to a complaint in Marion Superior Court under Cause No. 49D12-2009-CT033019, among others.
OFFICE OF CORPORATION COUNSEL

THE CITY OF
INDIANAPOLIS

200 E. Washington Street, Suite 1601
Indianapolis, IN 46204
Phone: 317.327.40
adam.will on ••ia -' MED

NOV 18 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

Respondents are therefore in the process of finalizing an engagement with outside
counsel to help prepare their response. Extending the deadline by thirty days will
permit outside counsel to familiarize themselves with the issues and the record. In
doing so, it will allow respondents to prepare a response that fully analyzes the
arguments raised in the petition— and thus a response that will be helpful to the Court's
consideration of those arguments.
I am not currently a member of the Supreme Court bar. Respondents acknowledge that
the brief in opposition must be filed by a member of the Court's bar.
Respectfully submitted,
/s/ Adam S. Willfond
Adam S. Willfond
Deputy Chief Litigation Counsel
cc:

Nathaniel Lee, Faith Alvarez; Lee, Cossell, & Crowley, LLP

OFFICE OF CORPORATION COUNSEL

THE CITY OF
INDIANAPOLIS

200 E. Washington Street, Suite 1601
Indianapolis, IN 46204
Phone: 317.327.4055
adam.willfond@indy.gov

